la
Filed: 0212812020
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
for the Federal Circuit
ALVIN E. MEDINA, Petitioner v. FEDERAL
AVIATION ADMINISTRATION, Respondent
2020-1033
Petition for review of an arbitrator's decision in Nos.
17-E SW-44,17-E SW-45,17-E SW-46,17-E SW-52,17ESW55, 17-ESW-58, 17-ESW-60, 17-ESW-62, and 18ESW-10 by Linda Byars.
ON MOTION
Before MOORE, CHEN, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
The Federal Aviation Administration ("FAA") moves to
waive the requirements of Rule 27 of the Federal Rules
of Appellate Procedure and Federal Circuit Rule 27(f)
and dismiss the petition for review for lack of
jurisdiction. Alvin E. Medina opposes.
Mr. Medina appealed his removal from his position at
the FAA to an arbitrator. At the time, Mr. Medina was
represented by his union counsel. On March 29, 2019,
the arbitrator issued a decision denying all of Mr.
Medina's grievances and emailed a copy to Mr. Medina's
counsel. Mr. Medina received an email from his counsel
notifying him that the arbitrator reached a decision on

2a
April 9, 2019 and received via email a copy of the
arbitrator's decision on April 10, 2019. On June 4, 2019,
Mr. Medina, now unrepresented, filed a petition for
review of the decision at the United States District
Court for the Central District of California. After the
district court transferred the case to this court, the
FAA moved to dismiss as untimely.
A petition for review of an arbitrator's decision must be
filed within sixty days after the arbitrator "issues
notice" of that decision. 5 U.S.C. § 7703(b)(1)(A); see
also 5 U.S.C. § 7121(f) ("[S]ection 7703 ... pertaining to
judicial review shall apply to the award of an arbitrator
in the same manner and under the same conditions as if
the matter had been decided by the Board."). An
arbitrator "issues notice" on "the date on which" the
arbitrator "sends the parties the final decision, whether
electronically, by regular mail, or by other means." Fed.
Educ. Ass'n-Stateside Region v. Dept of Def.,
Domestic Dependents Elementary & Secondary Sch.,
898 F.3d 1222, 1225 (Fed. Cir. 2018).
Measured by these standards, we must conclude that
Mr. Medina's petition was untimely. The arbitrator
emailed a copy of the decision to Mr. Medina's counsel
on March 29, 2019. That email constituted the date the
arbitrator issued notice of the decision because the time
to appeal "is measured from the earlier date of receipt
by the party or counsel." Oja v. Dept of the Army, 405
F.3d 1349, 1357 (Fed. Cir. 2005); c f.. Irwin v. Dept of
Veterans Affairs, 498 U.S. 89, 92 (1990) ("[E]ach party
is deemed bound by the acts of his lawyer-agent and is
considered to have notice of all facts, notice of which
can be charged upon the attorney." (internal quotation
marks and citations omitted)). Here, even giving Mr.

3a
Medina the benefit of the date he filed his petition at
the district court, it would still be 67 days after the
arbitrator emailed a copy of the decision to Mr.
Medina's then counsel. We must therefore conclude
that Mr. Medina's petition is untimely.
Mr. Medina argues that the time for filing should be
tolled because the arbitrator did not send him a copy of
the decision on March 29, 2019 and "[t]he arbitrator's
decision letter was silent on the Petitioner appeal
rights in this process," and "had no instructions,
guidance, or any language on where, when, or how to
file an appeal." But under this court's precedent, the
"timeliness of the petition for review is a jurisdictional
issue." Fed. Educ. Ass'n-Stateside Region, 898 F.3d at
1225. The deadline for filing a petition from the
arbitrator's decision to this court is thus not subject to
equitable tolling based on Mr. Medina's personal
circumstances. Because the petition here was filed
outside of the filing deadline, we grant the motion to
dismiss.
Accordingly,
IT IS ORDERED THAT:
The stay is lifted.
The FAA's motion is granted. The petition is dismissed.
Each side shall bear its own costs.
FOR THE COURT
February 28, 2020 Isl Peter R. Marksteiner
Date Peter R. Marksteiner Clerk of Court
s28
ISSUED AS A MANDATE: February 28, 2020

Footnote
* Although Mr. Medina argues that the FAA's
argument that the petition was untimely was
considered and rejected by the district court, the
district court transferred the case to this court without
addressing timeliness.

5a
Filed 09/27/19
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA CIVIL MINUTESGENERAL
September 27, 2019
EDCV 19-1019 JGB (KKx)
Alvin E. Medina v. Elaine L. Chao
JESUS G. BERNAL, UNITED STATES DISTRICT
JUDGE
MAYNOR GALVEZ
Deputy Clerk
Order (1) DENYING Defendant's Motion to Dismiss
(Dkt. No. 9); (2) TRANSFERRING the Action to the
United States Court of Appeals for the Federal Circuit;
and (3) VACATING the October 7, 2019 Hearing (IN
CHAMBERS)
Before the Court is Defendant Secretary of the United
States Department of Transportation Elaine Chao's
("Defendant") motion to dismiss Plaintiff Alvin Medina's
("Plaintiff') petition for review of arbitrator's decision.
("Motion," Dkt. No. 9.) The Court determines the
Motion is appropriate for resolution without a hearing.
See Fed. R. Civ. P. 78; L.R. 7-15. After considering the
papers filed in support of the Motion, the Court
DENIES the Motion. The hearing scheduled for
October 7, 2019 is VACATED.
I. BACKGROUND
On June 4, 2019, Plaintiff, proceeding pro se, filed a
petition for review of an arbitrator's decision upholding

6a
his removal from his position as a Drug and Alcohol
Compliance and Enforcement Inspector for the Federal
Aviation Administration ("FAA"). (" Compl.," Dkt. No.
Pars. 5, 10-11.) On August 23, 2019, Defendant filed the
Motion, seeking dismissal for lack of subject matter
jurisdiction. On September 16, 2019, Plaintiff filed proof
of service of his opposition on Defendant. (Dkt. No. 10.)
However, Plaintiff did not file his opposition with the
Court. Defendant filed a reply on September 23, 2019.
("Reply," Dkt. No. 11.)
Defendant provides the declaration of Victor Smith,
Labor Relations Specialist for the Labor Litigation
Division. ("Smith Decl.," Dkt. No. 9-1.) The Smith
Declaration explains that the National Air Traffic
Controllers Association (" NATCA" or "Union") "is the
exclusive union for certain employees, including Drug
Abatement Inspectors and Investigators" such as
Plaintiff. (Id. Par. 4; see also Compl. Par. 11 (NATCA
represented Plaintiff before arbitrator); Dkt. No. 1 at
21.1) NATCA has negotiated a collective bargaining
agreement ("CBA") on behalf of the employees it
represents. (Smith Decl.Par. 4; see also Compl. Par. 16
(referring to NATCA CBA); Dkt. No. 1 at 21.) The
CBA lays out a procedure for addressing pievances.
Under that procedure, an aggrieved employee must
first submit his grievance to his immediate supervisor
within twenty days of the event giving rise to the
grievance. (Smith Decl. Par. 5(a).) If the employee or
Union is not satisfied with the response, they may
submit the grievance to the next appropriate level. (Id.
Par. 5(b).) If the Union is not satisfied with that
decision, the Union may notify the Director of the
Office of Labor and Employee Relations that it wishes

7a
for the matter to be submitted to arbitration. (Id. Par.
5(c).)
In accordance with the grievance procedure, Plaintiff
and the Union submitted several grievances relating to
Plaintiff s termination. (Dkt. No. 1 at 26-28.) Following
the denial of the grievances, the Union requested
arbitration. (Id. at 28.) On March 29, 2019, the
arbitrator issued a decision denying the appealed
grievances. (Id. at 54.) Plaintiff filed his petition for
review without the assistance of the Union. (Compl.
Par. 4.)
II. LEGAL STANDARD
Defendant moves to dismiss under Federal Rule of
Civil Procedure 12(b) (1) ("Rule 12(b)(1)"). Rule 12(b)(1)
motions challenge the court's subject matter
jurisdiction, without which a federal district court
cannot adjudicate the case before it. See Kokkonen v.
Guardian Life Ins. Co., 511 U.S. 375 (1994). The party
asserting federal subject matter jurisdiction bears the
burden of proving its existence. Chandler v. State
Farm. Mut. Auto. Ins. Co., 598 F.3d 1115, 1122 (9th Cir.
2010). "Because ... ripeness pertain[s] to federal courts'
subject matter jurisdiction, [it is] properly raised in a
Rule 12(b)(1) motion to dismiss." Chandler v. State
Farm Mut. Auto. Ins. Co., 598 F.3d 1115) 1122 (9th Cir.
2010).
A party may seek dismissal of an action for lack of
subject matter jurisdiction under Rule 12(b) (1) "either
on the face of the pleadings or by presenting evidence."
Warren v. Fox Family Worldwide, Inc., 328 F.3d 1136,
1139 (9th Cir. 2003); see also White v. Lee, 227 F.3d

8a
1214,1242 (9th Cir. 2000). Where the party asserts a
facial challenge, the court limits its inquiry to the
allegations set forth in the complaint. Safe Air for
Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004).
"In resolving a factual attack on jurisdiction, the district
court may review evidence beyond the complaint
without converting the motion to dismiss into a motion
for summary judgment." Id. The court "need not
presume the truthfulness of the plaintiffs allegations,"
Lee, 227 F.3d at 1242, and may generally "resolve
factual disputes concerning the existence of
jurisdiction," McCarthy v. United States, 850 F.2d 558,
560 (9th Cir.1988). However, "[w]here jurisdiction is
intertwined with the merits," the Court must "[a]ssume
the truth of the allegations in a complaint ... unless
controverted by undisputed facts in the record."
Warren, 328 F.3d 1136, 1139 (9th Cir. 2003).
III. DISCUSSION
Defendant argues that under the Civil Service Reform
Act of 1978 ("Act"), only the Court of Appeals for the
Federal Circuit has jurisdiction over Plaintiffs petition
for review of the arbitrator's decision. (Motion at 1.)
Petitions for review of a final decision of the Merit
Systems Protection Board ("Board") "shall be filed in
the United States Court of Appeals for the Federal
Circuit." 5 U.S.C. § 7703(b)(1)(A); see also 28 U.S.C. §
1295(a) ("The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction ... of an
appeal from a final order or final decision of the Merit
Systems Protection Board, pursuant to sections
7703(b)(1) and 7703(4) of title 5[.] "). "[S]ection 7703 ...
pertaining to judicial review shall apply to the award of

9a
an arbitrator in the same manner and under the same
conditions as if the matter had been decided by the
Board" in certain matters covered by the Act. 5 U.S.C.
§ 7121(f). Those matters include actions related to
removal, suspension for more than 14 days, and
reduction in pay, among others. See id.; 5 U.S.C. § 7512.
Because Plaintiff challenges his removal (see Compl.
Par. 10), the present action is a matter covered under §
7512 such that the judicial review provisions of § 7703
apply. See.5 U.S.C. § 7121(f). Consequently, jurisdiction
over Plaintiffs petition lies only with the Federal
Circuit. Accord Devine v. Pastore, 732 F.2d 213, 215 n.2
(DC Cir.1984) ("The Court of Appeals for the Federal
Circuit now has exclusive jurisdiction over ... appeals
[of decisions of arbitrators pursuant to § 7121(f)]. "); cf.
Billops v. Dep't of Air Force, Little Rock Air Force
Base, 725 F.2d 1160, 1163 (8th Cir.1984) ("Congress
intended the Federal Circuit to have exclusive
jurisdiction over appeals from Merit Systems
Protection Board decisions. ").
Pursuant to 28 U.S.C. § 1631, the Court "shall, if it is in
the interest of justice, transfer [an] action or appeal
[over which it lacks jurisdiction] to any other ... court ...
in which the action or appeal could have been brought
at the time it was filed or noticed[.] " The Court finds it
is in the interest of justice to transfer Plaintiffs p,etition
to the United States Court of Appeals for the Federal
Circuit.
IV. CONCLUSION
For the foregoing reasons, Defendant's Motion is
DENIED. Though the Court agrees it lacks subject
matter jurisdiction over this action, it declines to

10a
dismiss the action, and instead TRANSFERS it to the
United States Court of Appeals for the Federal Circuit.
The hearing set for October 7, 2019 is VACATED.
IT IS SO ORDERED.
Footnote
1 Along with his Complaint, Plaintiff includes an
unlabeled document that appears to be the arbitrator's
decision. (See Dkt. No. 1 at 20-54.)

11a
Filed: 04/30/2020
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
for the Federal Circuit
ALVIN E. MEDINA, Petitioner v. FEDERAL
AVIATION ADMINISTRATION, Respondent
.
2020-1033
Petition for review of an arbitrator's decision in Nos.
17-ESW-44, 17-ESW-45, 17-ESW-46, 17-ESW-52, 17ESW-55, 17-ESW-58, 17-ESW-60, 17-ESW-62, 18 ESW
10 by Linda Byars.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge NEWMAN, LOURIE,
DYK, MOORE, O'MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER
Petitioner Alvin E. Medina filed a combined petition for
panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en bane was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof, IT IS ORDERED THAT:

12a
`The petition for panel rehearing is denied. The petition
for rehearing en bane is denied.
FOR THE COURT April 30, 2020
/s/ Peter R. Marksteiner
Peter R. Marksteiner Clerk of Court

